No. 21-52
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------EMMANUEL EDOKOBI,
Petitioner,
v.
TOYOTA MOTOR CREDIT CORPORATION, et al.,
Respondents.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit
---------------------------------♦--------------------------------BRIEF IN OPPOSITION FOR
RESPONDENT SUNTRUST BANK
---------------------------------♦--------------------------------MATTHEW A. EGELI
Counsel of Record
EGELI LAW FIRM, PLLC
108 D MacTanly Place
P.O. Box 3208
Staunton, VA 24402-3208
Telephone: (540) 569-2690
Email: matthew@egelilaw.com
Counsel for Respondent SunTrust Bank
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTIONS PRESENTED
This case arises out of a dispute between Petitioner and Respondents regarding a $536.34 electronic
payment that SunTrust Bank (“SunTrust”) processed
from Petitioner’s account for the benefit of Toyota
Motor Credit Corporation (“TMCC” or “Toyota”), which
held Petitioner’s car loan. The questions presented, as
rephrased by SunTrust, are:
1.

Whether the district court judge was disqualified
from hearing the case because of the civil lawsuit
that Petitioner filed against the judge, which is
currently before this Court on Petitioner’s petition
for writ of certiorari. See Emmanuel Edokobi v.
Paul W. Grimm, No. 20-1638 (petition for cert. filed
May 25, 2021).

2.

Whether the district court judge was disqualified
from hearing the case pursuant to the Judicial
Conduct and Disability Act of 1980, 28 U.S.C.
§§ 351-364.

3.

Whether the district court erred in granting SunTrust’s Motion for Summary Judgment on all
claims asserted by Petitioner against SunTrust.

4.

Whether the district court erred in granting
TMCC’s Motion for Summary Judgment on all
claims asserted by Petitioner against Toyota.

5.

Whether the district court erred in denying Petitioner’s motion to dismiss SunTrust’s Counterclaim, in which SunTrust sought a judgment
against Petitioner for $451.19, which was the overdraft balance on Petitioner’s SunTrust account.

ii
QUESTIONS PRESENTED – Continued
6.

Whether the Fourth Circuit erred by affirming the
district court’s refusal to accept Petitioner’s “counterclaim and motion to dismiss” and Petitioner’s
motion to compel SunTrust to accept TMCC’s
$536.34 refund check.

7.

Whether any issues resulting from a letter TMCC
allegedly sent to Petitioner during May 2021 regarding Petitioner’s car loan with Toyota assert a
valid question to this Court.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Respondent SunTrust Bank discloses that Truist Bank was
formed on December 7, 2019, by the merger of SunTrust Bank into Branch Banking and Trust Company
(“BB&T”), and BB&T’s subsequent change of its name
to Truist Bank. Truist Bank is the wholly-owned subsidiary of Truist Financial Corporation, which is publicly traded on the New York Stock Exchange under the
ticker symbol “TFC.” No other publicly traded corporation owns 10% or more of the stock of Truist Financial
Corporation.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ................................

i

TABLE OF AUTHORITIES .................................

vi

INTRODUCTION ................................................

1

STATEMENT OF THE CASE..............................

2

REASONS FOR DENYING THE WRIT ..............

8

I. The Fourth Circuit opinion, which affirmed
the district court judge’s finding that he
was not disqualified from hearing the case
because of a separate lawsuit that Petitioner filed against the judge, does not
warrant further review ..............................

8

II. The Fourth Circuit opinion, which affirmed
the district court judge’s finding that the
Judicial Conduct and Disability Act of 1980
did not disqualify him from hearing the
case, does not warrant further review.........

9

III.

The Fourth Circuit opinion, which affirmed
the district court’s ruling granting summary judgment in favor of SunTrust, does
not warrant further review ....................... 11

IV. The Fourth Circuit opinion, which affirmed
the district court’s ruling granting summary judgment in favor of TMCC, does not
warrant further review .............................. 18

v
TABLE OF CONTENTS – Continued
Page
V.

The Fourth Circuit opinion, which affirmed
the district court’s denial of Petitioner’s
motion to dismiss SunTrust’s Counterclaim, does not warrant further review..... 18

VI. The Fourth Circuit opinion, which affirmed
the district court’s refusal to accept Petitioner’s “counterclaim and motion to dismiss” and Petitioner’s motion to compel
SunTrust to accept TMCC’s refund check,
does not warrant further review ............... 19
VII.

Any issues resulting from a letter TMCC
allegedly sent to Petitioner during May
2021 regarding Petitioner’s car loan do not
assert a valid question .............................. 22

CONCLUSION..................................................... 23

vi
TABLE OF AUTHORITIES
Page
CASES
Anderson v. Liberty Lobby, Inc., 477 U.S. 242
(1986) .......................................................................12
Celotex Corp. v. Catrett, 477 U.S. 317 (1986) ........ 11, 12
Bouchat v. Baltimore Ravens Football Club, Inc.,
346 F.3d 514 (4th Cir. 2003) ....................................12
In re Taylor, 417 F.3d 649 (7th Cir. 2005) ..................10
Peters v. Jenney, 327 F.3d 307 (4th Cir. 2003) ............12
Woollard v. Gallagher, 713 F.3d 865 (4th Cir.
2013) ........................................................................11
STATUTES AND REGULATIONS
28 U.S.C. § 455 ............................................................10
Fair Debt Collection Practices Act, 15 U.S.C.
§§ 1692-1692p...................................................... 6, 14
Judicial Conduct and Disability Act of 1980, 11
U.S.C. §§ 351-364.....................................................10
Supplemental Jurisdiction, 28 U.S.C. § 1367.............19
Maryland Confidential Financial Records Act,
MD. CODE ANN., FIN. INST. §§ 1-301-306 ....... 6, 15
Maryland Consumer Protection Act, MD. CODE
ANN., COM. LAW §§ 13-101-501 ....................... 6, 15
COURT RULES
Fed. R. Civ. P. 56(a) .....................................................11

1
INTRODUCTION
Petitioner seeks review of the Fourth Circuit’s unpublished, per curiam opinion affirming the district
court’s summary judgment rulings in favor of Respondents SunTrust Bank (“SunTrust”) and Toyota Motor
Credit Corporation (“TMCC” or “Toyota”) on all claims
asserted by Petitioner, and also in favor of SunTrust
on the $451.19 counterclaim that SunTrust asserted
against Petitioner. The lower court’s judgments reflect
a routine and fact-specific application of settled precedents and there is no issue of national importance that
warrants further review.
Petitioner filed a Complaint against SunTrust
and TMCC in state court alleging that SunTrust had
wrongfully processed certain electronic funds transfers from Petitioner’s SunTrust account for the benefit
of TMCC, which held Petitioner’s car loan. SunTrust
removed the case to the United States District Court
for the District of Maryland based upon federal question and supplemental jurisdiction, and the case was
assigned to District Judge Paul W. Grimm.
Shortly after removing the case to the district
court, SunTrust filed a Counterclaim against Petitioner for breach of contract. The Counterclaim asserted
that Petitioner’s SunTrust account was overdrawn
after SunTrust had processed the last electronic debit
from Petitioner’s account to TMCC and, when Petitioner refused to pay the overdrawn account balance,
SunTrust closed the account and charged off the

2
overdraft balance, for which Petitioner was contractually liable to SunTrust.
The district court granted summary judgment in
favor of Respondents and against Petitioner on all
claims asserted by Petitioner, and in favor of SunTrust
and against Petitioner on SunTrust’s Counterclaim.
Petitioner filed a Notice of Appeal to the Fourth Circuit. After the Fourth Circuit affirmed the lower court’s
judgments in an unpublished opinion, Petitioner filed
a petition for writ of certiorari with this Court raising
seven questions. This Court should deny the petition.
---------------------------------♦---------------------------------

STATEMENT OF THE CASE
During 2012, Petitioner opened a deposit account
with SunTrust (the “SunTrust Account” or “Account”).
When he opened the Account, Petitioner signed a Personal Account Signature Card (the “Account Signature
Card”). By signing the Account Signature Card, Petitioner agreed that his use of the Account “shall be governed by the rules and regulations for this account”
and he “acknowledge[d] receipt of such rules and regulations and the funds availability policy.” ECF 65-2 at
¶3; ECF 65-3. The Rules and Regulations for Deposit
Accounts (the “Rules and Regulations”) gave SunTrust
authority manage the handling of credits to, and debits
from, the Account, and set forth the procedures to be
followed if there was a dispute regarding any Account
activity. ECF 65-2 at ¶4; ECF 65-4.

3
SunTrust issued monthly account statements
showing all activity on Petitioner’s Account and, pursuant to his election, made the statements available
for his review electronically (the “Account Statements”). ECF 65-2 at ¶5. The Account Statements
showed that the Account was overdrawn and charged
overdraft fees on multiple occasions, and that the Account incurred account maintenance fees during a
number of months because Petitioner allowed the average daily balance to fall below the minimum amount
required to avoid a fee. ECF 65-2 at ¶6.
The Account Statements also showed that Petitioner used his SunTrust Account on multiple occasions to make electronic payments to TMCC. ECF 652 at ¶8. During the time period covered by the Account
Statements, Petitioner used his SunTrust Account to
transmit 38 separate electronic debits to TMCC for
varying amounts. ECF 65-2 at ¶9.
As reflected by the Account Statement for the time
period 06/27/2018 through 07/26/2018, separate electronic debits to “Toyota Pay” for $268.17 and to “Toyota
Financial” for $536.34 were charged to the Account on
06/27/2018. Pursuant to the Rules and Regulations
governing the Account, SunTrust processed the debits,
which resulted in the Account having an overdraft balance. In accordance with the terms of the Rules and
Regulations, and SunTrust’s Personal Deposit Account Fee Schedule, SunTrust charged the Account a
$36.00 overdraft fee, a $36.00 extended overdraft fee,
and a $10.00 maintenance fee. All of these transactions taken together resulted in the Account having an

4
overdrawn balance of negative $512.19 as of 07/26/2018.
ECF 65-2 at ¶11; ECF 65-5.
On 6/28/2018, Petitioner submitted a Written
Statement of Unauthorized Debit to SunTrust. In the
Written Statement, Petitioner disputed the $536.34
electronic debit charged to the Account on 06/27/2018,
alleging both that the payment was not received and
that he did not authorize TMCC to debit the Account.
ECF 65-2 at ¶12; ECF 65-6.
On 7/3/2018, Petitioner submitted a follow up
Written Statement of Unauthorized Debit to SunTrust. The follow up Written Statement included a letter from TMCC indicating that Petitioner had a credit
agreement with TMCC and that he had verbally authorized a $268.17 electronic debit from the SunTrust
Account on 06/26/2018. ECF 65-2 at ¶13; ECF 65-7.
SunTrust’s Fraud Assistance Center reviewed Petitioner’s claim following SunTrust’s normal policies
and procedures. ECF 65-2 at ¶14. In letters to Petitioner dated 7/11/2018 and 7/13/2018, SunTrust informed Petitioner that it was denying his claim for a
refund of the $536.34 electronic debit to TMCC because Petitioner had previous undisputed electronic
debits with TMCC, and there was no evidence an error
had occurred. SunTrust suggested that Petitioner contact TMCC directly to resolve the issue. ECF 65-2 at
¶15; ECF 65-8.
On or about 7/21/2018, Petitioner sent SunTrust’s
Maryland resident agent a document titled “LEGAL
NOTICE” in which he again requested that SunTrust

5
refund him the $536.34 electronic debit to TMCC, and
threatened to file a lawsuit against SunTrust if it did
not comply. ECF 65-2 at ¶16; ECF 65-9.
SunTrust reviewed Petitioner’s renewed claim in
accordance with its normal policies and procedures.
On 8/14/2018, SunTrust initiated a telephone call on
a recorded line during which a SunTrust representative, a TMCC representative, and Petitioner were participants. During the call, the TMCC representative
stated that TMCC had sent a $536.34 payment refund
check to Petitioner on 8/1/2018. Petitioner acknowledged that he had received the $536.34 refund, but
said he would not deposit the check because he wanted
to sue TMCC for pain and suffering damages. ECF
65-2 at ¶17; ECF 65-10.
On 8/15/2018, one day after the telephone call,
SunTrust’s Fraud Assistance Center sent Petitioner a
letter stating that it was again denying his claim. ECF
65-2 at ¶18; ECF 65-11.
Petitioner did not deposit the $536.34 TMCC refund check into the SunTrust Account. ECF 65-2 at
¶19.
The Account Statement for the time period
07/27/2018 through 09/25/2018 shows that SunTrust
refunded two overdraft fees, and applied a $10.00
maintenance fee to the Account, all of which resulted
in Petitioner’s Account having a negative balance of
$450.19 as of 8/28/2018. On 8/31/2018, SunTrust
charged off the overdraft balance and closed the Account. The Account Statement showing the Account

6
closing and the overdraft balance of $450.19 was made
available electronically for Petitioner’s review. ECF
65-2 at ¶20.
Petitioner failed to pay SunTrust any portion of
the $450.19 overdraft balance, the entire amount of
which was due and owing to SunTrust under the Rules
and Regulations. ECF 65-2 at ¶21.
On 12/31/2018, Petitioner filed a civil lawsuit
against SunTrust and TMCC in the Circuit Court for
Montgomery County, Maryland, alleging, among other
things, that SunTrust had wrongfully processed certain electronic funds transfers from Petitioner’s SunTrust account for the benefit of TMCC, which held
Petitioner’s car loan. Petitioner’s causes of action
against SunTrust1 included claims for breach of fiduciary duty (Counts 8 and 9), unjust enrichment (Counts
10 and 11), aiding and abetting (Counts 12 and 13),
violations of the Fair Debt Collections Practices Act2
(Counts 16 and 17), violations of the Maryland Consumer Protection Act3 (Counts 18, 19 and 23), violations of the Maryland Confidential Financial Records
Act4 (Count 20), promissory estoppel (Count 24), malicious act of tampering (Counts 25 and 26), civil conspiracy (Counts 27 and 28), conspiracy to negligence
(Count 29) and intentional infliction of emotional
Counts 1 through 7, 14, 15, 21 and 22 of the Complaint asserted claims against TMCC only.
2
15 U.S.C. §§ 1692-1692p.
3
MD. CODE ANN., COM. LAW §§ 13-101-501.
4
MD. CODE ANN., FIN. INST. §§ 1-301-306.
1

7
distress (Count 30). SunTrust removed the state court
case to the United States District Court for the District
of Maryland based on federal question and supplemental jurisdiction, and the case was assigned to District Judge Paul W. Grimm. ECF 1; ECF 5.
After removing the case to the district court, SunTrust filed a Counterclaim against Petitioner for
breach of contract. ECF 15. The Counterclaim asserted
that Petitioner’s Account was overdrawn after SunTrust had processed the last electronic debit from
Petitioner’s checking account to TMCC and, when Petitioner refused to pay the overdrawn account balance,
SunTrust closed the account and charged off the overdraft balance, for which Petitioner was contractually
liable to SunTrust.
After the close of discovery, SunTrust filed a Motion for Summary Judgment seeking judgment in its
favor on all claims asserted by Petitioner in the Complaint, and also on the breach of contract claim that
SunTrust asserted in the Counterclaim. ECF 65.
TMCC also filed a Motion for Summary Judgment on
all claims that Petitioner asserted against it in the
Complaint. ECF 66.
In a detailed 22-page Memorandum Opinion and
Order, the district court considered the facts and the
applicable law, and granted summary judgment in favor of Respondents and against Petitioner on all claims
asserted by Petitioner, and in favor of SunTrust and
against Petitioner on SunTrust’s Counterclaim. ECF
98.

8
Petitioner filed a Notice of Appeal to the Fourth
Circuit. ECF 100. After the Fourth Circuit affirmed the
lower court’s judgments in an unpublished, per curiam
opinion, Petitioner filed a petition for writ of certiorari
with this Court seeking review of seven questions.
---------------------------------♦---------------------------------

REASONS FOR DENYING THE WRIT
I.

The Fourth Circuit opinion, which affirmed
the district court judge’s finding that he
was not disqualified from hearing the case
because of a separate civil lawsuit that Petitioner filed against the judge, does not
warrant further review.

Petitioner’s first question to this Court is based on
his contention that the district court judge was “judicially disabled” from hearing the case because of a separate civil lawsuit that Petitioner filed against the
judge.
The record shows that shortly after SunTrust removed the case from state court to the district court,
Petitioner filed a civil lawsuit against the assigned district court judge. See Emmanuel Edokobi v. Judge Paul
W. Grimm, Case No. 8:19-cv-00905-GJH (D. Md. Mar.
27, 2019).5 After filing the lawsuit, Petitioner filed a
Petitioner’s civil lawsuit against the district court judge
was filed in state court and removed to the district court. After
the district court dismissed the lawsuit, Petitioner appealed to
the Fourth Circuit. After the Fourth Circuit affirmed the dismissal, the Petitioner filed a petition for writ of certiorari with this
5

9
motion to remove the district judge from the case and
threatened that he “[would] not participate” unless the
case was reassigned. ECF 32. In a Letter Order entered in the case [ECF 34], the district judge observed
“that there ‘is no rule that requires a judge to recuse
himself from a case, civil or criminal, simply because
he was or is involved in litigation with one of the parties.’ ” The judge noted that Petitioner had “repeatedly
attempted to circumvent my authority over the case”
and concluded that Petitioner’s lawsuit was designed
to “judge shop” by filing a lawsuit against the presiding
judge and then demanding recusal. The district judge
then explained why Petitioner’s filing of a “highly questionable” and possibly “meritless” lawsuit, over which
“the doctrine of judicial immunity is plainly implicated,” did not disqualify the judge from hearing the
case. For these reasons, the judge determined that he
would not recuse himself and denied Petitioner’s motion. The Fourth Circuit affirmed the decision when it
entered the unpublished opinion. This question does
not warrant further review.
II.

The Fourth Circuit opinion, which affirmed
the district court judge’s finding that the
Judicial Conduct and Disability Act of
1980 did not disqualify him from hearing
the case, does not warrant further review.

Petitioner’s second question to this Court is
based on his claim that the district court judge was
Court. The petition is pending. See Emmanuel Edokobi v. Paul W.
Grimm, No. 20-1638 (petition for cert. filed May 25, 2021).

10
disqualified from hearing the case pursuant to the
Judicial Conduct and Disability Act of 1980, 11 U.S.C.
§§ 351-364. As with Petitioner’s first question, his
second question is based on the separate civil lawsuit
he filed against the district judge assigned to the case.
In the Letter Order addressing Petitioner’s motion
to have the district judge removed from the case [ECF
34], the judge noted the Judicial Conduct and Disability Act’s requirement that a judge “disqualify himself
in any proceedings in which his impartiality might reasonably be questioned.” 28 U.S.C. § 455. However, the
judge concluded that Petitioner’s lawsuit against him,
which Petitioner filed after SunTrust removed this
case to the federal district court and after the judge
was assigned to preside over the matter, did not create
reasonable grounds for seeking the judge’s disqualification. The district judge observed that federal courts
have considered such circumstances warily because a
per se rule requiring recusal “would allow litigants to
judge shop by filing a suit against the presiding judge.”
ECF 34 at ¶5 (quoting In re Taylor, 417 F.3d 649, 652
(7th Cir. 2005)). After considering the facts and law,
the district judge denied Petitioner’s motion to remove
him from the case based on the requirements of the
Judicial Conduct and Disability Act. The Fourth Circuit affirmed that decision when it entered the unpublished opinion. This question does not warrant
further review.

11
III. The Fourth Circuit opinion, which affirmed
the district court’s ruling granting summary judgment in favor of SunTrust, does
not warrant further review.
Petitioner’s third question to this Court is based
on his contention that the district court erred in granting SunTrust’s Motion for Summary Judgment on all
of Petitioner’s claims against SunTrust, and on SunTrust’s $450.19 Counterclaim against Petitioner. As
explained below, the district court’s rulings, as affirmed by the Fourth Circuit, were correct and Petitioner’s question does not warrant further review.
The reasoning for the district court’s judgments is
set forth in a well-reasoned 22-page Memorandum
Opinion and Order that addresses every cause of action asserted in the case. ECF 98. The Fourth Circuit’s
review of the district court’s award of summary judgment was de novo, “viewing the facts and inferences
reasonably drawn therefrom in the light most favorable to the nonmoving party.” See Woollard v. Gallagher,
712 F.3d 865, 873 (4th Cir. 2013). Under that standard
of review, an award of summary judgment is appropriate if the record demonstrates that “there is no genuine
dispute as to any material fact and that the movant is
entitled to judgment as a matter of law.” See Fed. R.
Civ. P. 56(a). However, if the party seeking summary
judgment demonstrates that there is no evidence in
support of the nonmoving party’s case, the burden
shifts to the nonmoving party to identify evidence
showing that a genuine dispute exists as to material
facts. See Celotex Corp. v. Catrett, 477 U.S. 317, 325

12
(1986). In that regard, “[a] party opposing a properly
supported motion for summary judgment ‘may not rest
upon the mere allegations or denials of [his] pleadings,’
but rather must ‘set forth specific facts showing that
there is a genuine issue for trial.’ ” Bouchat v. Baltimore Ravens Football Club, Inc., 346 F.3d 514, 522 (4th
Cir. 2003) (quoting former Fed. R. Civ. P. 56(e)). “A mere
scintilla of proof . . . will not suffice to prevent summary judgment.” Peters v. Jenney, 327 F.3d 307, 314
(4th Cir. 2003). “If the evidence is merely colorable, or
is not sufficiently probative, summary judgment may
be granted.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 250 (1986) (citations omitted). After reviewing the
record and applicable law, the Fourth Circuit affirmed
the district court’s summary judgment rulings in favor
of SunTrust.
In disputing the granting of summary judgment
against him, Petitioner presents many arguments that
are difficult to comprehend and repetitive, but that appear to focus on whether SunTrust acted properly
when it (1) processed the June 2018 $536.34 electronic
debit to TMCC, (2) denied Petitioner’s fraud claim after
learning that he had received a $536.34 refund check
from TMCC but refused to deposit the item, and (3)
closed Petitioner’s Account after he refused to correct
the Account’s overdrawn balance. Despite Petitioner’s
many conclusory statements and allegations, the record of this case does not contain any genuine issue of
material fact that would have precluded the granting
of summary judgment in SunTrust’s favor. Furthermore, the district court’s Memorandum Opinion and

13
Order granting summary judgment in SunTrust’s favor contains a detailed and correct analysis of the established law. Simply put, the granting of summary
judgment in favor of SunTrust was appropriate and
Petitioner’s attempt to question the district court’s
rulings, in a fact-specific case lacking any issues of
national importance, does not warrant further review.
Regarding Petitioner’s various claims against
SunTrust, the district court rejected Petitioner’s assertion that SunTrust owed him a fiduciary duty. The
court found that the relationship between the parties
was contractual and that the Rules and Regulations
governing the Account specifically stated that SunTrust “is not in any way acting as a fiduciary to [Petitioner]” and that “no special relationship exists”
between the parties. ECF 98, p. 9. The lower court’s
finding that an ordinary contractual relationship existed between SunTrust and Petitioner was correct and
does not warrant further review.
The district court also found that SunTrust was
not unjustly enriched by any of the actions it took regarding the electronic debit to TMCC or the closing of
the Account. The court found that Petitioner had failed
to provide any facts establishing that SunTrust unjustly retained any fees and that all of the bank’s actions were done in accordance with the contract terms.
ECF 98, pp. 10-11. The court concluded that there were
no facts to support any of the elements of an unjust
enrichment claim against SunTrust. Accordingly, the
court granted summary judgment in SunTrust’s favor
on Petitioner’s unjust enrichment claims. The lower

14
court’s decision was correct and does not warrant further review.
The district court also found that Petitioner’s
claims against SunTrust for “aiding and abetting”
failed as a matter of law. ECF 98, p. 11. The court again
observed that SunTrust did not owe a fiduciary duty to
Petitioner and also found that Petitioner had failed to
provide any facts to establish a theory of liability or
tortious conduct by SunTrust. The court correctly
granted summary judgment in favor of SunTrust on
Petitioner’s “aiding and abetting” claims. The decision
does not warrant further review.
The lower court ruled that Petitioner’s Fair Debt
Collection Practices Act6 (“FDCPA”) claims against
SunTrust failed because SunTrust was not a “debt collector” under the FDCPA. ECF 98, pp. 13-14. Based on
a plain reading of the FDCPA and established law, the
court found that “SunTrust is not a debt collector as
defined by the FDCPA” and further observed that
“[SunTrust’s] role here is simply that of processing
electronic payments.” The court correctly granted summary judgment in favor of SunTrust on Petitioner’s
FDCPA claims. The decision does not warrant further
review.
The district court also found that Petitioner failed
to present any facts to show that SunTrust had engaged in any “[u]nfair, abusive, or deceptive trade
practices” prohibited by the Maryland Consumer
6

15 U.S.C. §§ 1692-1692p.

15
Protection Act7 (“CPA”) or committed any other violation of the CPA. ECF 98, pp. 14-15. The court observed
that the electronic debts to TMCC were initiated from
Petitioner’s online Toyota account that required Petitioner’s authentication to make, and that the June
2018 electronic payment that Petitioner disputed was
returned to him. The court granted summary judgment in favor of SunTrust on Petitioner’s CPA claims.
The decision was correct and does not warrant further
review.
The lower court ruled that Petitioner had failed to
establish a claim against SunTrust under the Maryland Confidential Financial Records Act8 (“MCFRA”).
ECF 98, pp. 15-16. The MCFRA generally prohibits a
financial institution from disclosing the financial records of one of its customers to any person, unless an
exception applies. MD. CODE ANN., FIN. INST. § 1302. One such exemption is when “[t]he customer has
authorized the disclosure to that person.” Id. The court
found, based on the record facts, that Petitioner gave
SunTrust authorization to disclose his Account information to TMCC and also that Petitioner had previously used the Account to make payments on his
TMCC car loan. As a result, the court granted summary judgment in favor of SunTrust on Petitioner’s
MCFRA claim. The decision was correct and does not
warrant further review.

7
8

MD. CODE ANN., COM. LAW §§ 13-101-501.
MD. CODE ANN., FIN. INST. §§ 1-301-306.

16
The district court also found that Petitioner had
failed to establish any facts in support of the promissory estoppel claim alleged in the Complaint. ECF 98,
p. 16. Petitioner asserted that SunTrust had breached
a promise to protect his money when it processed electronic debits to TMCC. However, the court found that
the relationship between SunTrust and Petitioner was
contractual in nature, with the contract terms set forth
in the Rules and Regulations, and that the Rules and
Regulations specifically provided that SunTrust “has
no duty to investigate or question items, withdrawals,
or the application of funds.” ECF 65-4. The court correctly granted summary judgment in favor of SunTrust on Petitioner’s promissory estoppel claim. The
decision does not warrant further review.
The lower court ruled that SunTrust was entitled
to summary judgment on Petitioner’s claims for “malicious acts of tampering” because this purported cause
of action does not exist under Maryland law. ECF 98,
p. 17. The court also found that the Rules and Regulations allowed SunTrust to close the Account without
advance notice, so the Account closure was not malicious. The court’s decision was correct and does not
warrant further review.
The district court also considered Petitioner’s
claims against SunTrust and TMCC for civil conspiracy. ECF 98, p. 17. The court explained that “conspiracy” is not a separate tort under Maryland law in the
absence of other tortious injury to a plaintiff, and
found no evidence supporting Petitioner’s allegations
that SunTrust and TMCC tortiously injured him or

17
otherwise conspired against him. Accordingly, the
court found that Petitioner had failed to present any
facts to support a civil conspiracy claim. The court’s
decision was correct and does not warrant further review.
The district court also ruled that SunTrust was
entitled to summary judgment on Petitioner’s claim for
“conspiracy to negligence” because no such cause of
action exists under Maryland law. To the extent that
Petitioner was alleging negligence against SunTrust,
the court found no facts establishing that SunTrust
owed Petitioner anything other than the duties contained in the Rules and Regulations, which set forth
the terms of the parties’ contract and were not
breached. ECF 98, pp. 17-18. The court’s decision was
correct and does not warrant further review.
Finally, the lower court ruled that SunTrust was
entitled to summary judgment on Petitioner’s claim
asserting intentional infliction of emotional distress,
because the record showed that only Petitioner could
have initiated electronic debits to TMCC, and there
were no facts to establish that any of SunTrust’s actions were “intentional or reckless” or “extreme or outrageous.” ECF 98, pp. 18-19. As with the court’s other
summary judgment rulings, the decision was correct
and does not warrant further review.

18
IV. The Fourth Circuit opinion, which affirmed
the district court’s ruling granting summary judgment in favor of TMCC, does not
warrant further review.
Petitioner’s fourth question to this Court is
whether the district court erred when it granted
TMCC’s Motion for Summary Judgment as to all
claims asserted by Petitioner against Toyota. Petitioner asserted many of the same claims against both
TMCC and SunTrust, and the record facts and supporting law justifying summary judgment in favor of
SunTrust on those claims apply to the identical claims
asserted against TMCC. Furthermore, in ruling on
each of Petitioner’s various claims against TMCC, the
district court was applying established precedents in
a fact-specific case, and there is no issue that warrants further review.
V.

The Fourth Circuit opinion, which affirmed
the district court’s denial of Petitioner’s
motion to dismiss SunTrust Bank’s Counterclaim, does not warrant further review.

Petitioner’s fifth question to this Court is whether
the district court lacked subject matter jurisdiction to
consider SunTrust’s Counterclaim, in which SunTrust
asserted a breach of contract claim against Petitioner
for the $451.19 overdrawn Account balance. Petitioner
raised this issue in a motion to dismiss [ECF 39],
which the court denied as moot when it granted summary judgment in SunTrust’s favor on the Counterclaim.

19
The record below shows that this case was
properly removed from state court to the district court
at SunTrust’s request because of the federal statutory
claims asserted in the Complaint. Upon the case being
removed to the district court as a result of the federal
statutory claims, the district court had supplemental
jurisdiction over SunTrust’s Counterclaim pursuant to
28 U.S.C. § 1367 because the claim asserted in the
Counterclaim was so related to the claims asserted in
the Complaint that they formed part of the same case
or controversy. Although Petitioner contended, in a
portion of the motion to dismiss, that the district
court lacked subject matter jurisdiction over the
Counterclaim, he contradicted himself when he
stated, in paragraphs 46 and 47 of the same motion,
that “[Petitioner] Admits SunTrust Allegation No. 8
[providing the jurisdictional basis for the Counterclaim] because [ ] this Court has supplemental jurisdiction over this action pursuant to 28 U.S.C. §1367.”
For these reasons, the district court’s decision to deny
Petitioner’s motion to dismiss SunTrust’s Counterclaim was correct and does not warrant further review.
VI. The Fourth Circuit opinion, which affirmed
the district court’s refusal to accept Petitioner’s “counterclaim and motion to dismiss” and Petitioner’s motion to compel
SunTrust Bank to accept TMCC’s refund
check, does not warrant further review.
Petitioner’s sixth question to this Court combines
his claims that the district court erred when it refused

20
to accept his “counterclaim and motion to dismiss” for
filing and separately refused to accept his motion to
compel SunTrust to accept TMCC’s refund check. The
record shows that neither paper was accepted for filing
because Petitioner failed to follow the lower court’s
pre-motion procedures.
As for Petitioner’s claim that the district court
erred in not permitting him to file a paper that Petitioner essentially fashioned as a “counterclaim and
motion to dismiss,”9 it is apparent that Petitioner, who
was the plaintiff in the district court proceedings, could
not file a counterclaim. Petitioner never attempted to
file an amended complaint in the case. Also, the district
court record shows that although Petitioner attempted
to file the combined pleading and motion with the
lower court, the court rejected his filing as deficient
[ECF 20] because he failed to follow the court’s mandatory pre-motion procedures as set forth in the Letter
Order Regarding the Filing of Motions. ECF 6. Although Petitioner filed an interlocutory Notice of
The full title of the paper that Petitioner attempted to
file is: “Defendant/Plaintiff Emmanuel Edokobi By (Himself )
(“Edokobi”) As A Pro Se Respectfully Files Compulsory Counterclaim Under Rule 13(A) Of The Federal Rules of Civil Procedure
(FRCP), Against SunTrust Bank’s (“SunTrust”) Counterclaim of
Breach Of Contract And Defendant/Plaintiff Edokobi’s Motion to
Dismiss Under Federal Rule of Civil Procedure 12(B)(6) SunTrust’s Counterclaim of Breach of Contract Against Defendant/
Plaintiff Edokobi in the Civil Case No. 8:19-CV-00248-PWG And
Defendant/Counter-Plaintiff Edokobi Hereby Demands A Trial
By Jury On All Issues So Triable Pursuant To Federal Rule Of
Civil Procedure 38 And Will Not Stipulate To A Jury Of Less
Than Twelve (12) Jurors.”
9

21
Appeal [ECF 21] to the Fourth Circuit (Appeal No.
19-1203) because of the district court ruling rejecting
his attempted filing, Petitioner voluntarily dismissed
the appeal and never attempted to comply with the
lower court’s pre-motion procedures with regard to the
“counterclaim and motion to dismiss.”
Petitioner also alleges that the district court
should have considered his request for an order directing SunTrust to accept and deposit the TMCC refund
check (ironically, the very same refund check Petitioner refused to deposit into the SunTrust Account
because he wanted to file a lawsuit against TMCC).
The record below shows that Petitioner attempted to
file a motion to compel SunTrust to accept the TMCC
refund check.10 However, the lower court rejected the
filing as deficient [ECF 26] because the paper violated
the court’s pre-motion procedures as set forth in the
Letter Order Regarding the Filing of Motions. ECF 6.
Petitioner never attempted to satisfy the court’s premotion procedures.
Regarding both papers that are the subject of this
question, Petitioner failed to follow the district court’s
The full title of the paper that Petitioner attempted to file
is: “Defendant/Plaintiff Edokobi By (Himself ) (“Edokobi”) As A
Pro Se Respectfully Files A Motion And Declaration To Compel
SunTrust Bank (“SunTrust”) To Accept Check . . . In The Amount
Of $536.34 Which [TMCC] Sent To Edokobi Which Does Not Include SunTrust Bank’s Over Draft Charges As Demand By
Edokobi That The Said Check Be Deposited Into Edokobi’s SunTrust Personal Checking Account . . . And Defendant/Plaintiff
Edokobi Demands For Court Hearing For The Civil Case Number
Case No. 00238-PWG.”
10

22
pre-motion procedures, even after the papers were
rejected as deficient. The court’s actions in implementing and enforcing pre-motion procedures were correct.
Because Petitioner never attempted to satisfy the
court’s pre-motion requirements regarding the issues
raised in the papers, the merits of Petitioner’s requests
were never considered by the lower court, and therefore not preserved for appellate review. This question
does not warrant further review.
VII.

Any issues resulting from a letter TMCC
allegedly sent to Petitioner during May
2021 regarding Petitioner’s car loan do not
assert a valid question.

Petitioner’s seventh and final question to this
Court focuses on a letter TMCC allegedly sent to Petitioner during May 2021 regarding Petitioner’s car loan.
It is fundamental that any issues resulting from a May
2021 letter were not considered during any of the proceedings below. Petitioner’s claims in this case are set
forth in the Complaint he filed on December 31, 2018.
The district court granted summary judgment in favor
of SunTrust and TMCC on all of Petitioner’s claims on
March 2, 2020. The Fourth Circuit affirmed the district
court’s ruling in an unpublished per curiam opinion
entered on April 9, 2021. Any issues resulting from a
May 2021 letter clearly do not form the basis for a valid
question to this Court.
---------------------------------♦---------------------------------

23
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
MATTHEW A. EGELI
Counsel of Record
EGELI LAW FIRM, PLLC
108 D MacTanly Place
P.O. Box 3208
Staunton, VA 24402-3208
Telephone: (540) 569-2690
Email: matthew@egelilaw.com
Counsel for Respondent SunTrust Bank

